James M Lloyd III - Petitioner
United States of America - Respondent(s)

I, James M. Lloyd III, do swear or declare that on this date, January 18. 2021. as required
by Supreme Court Rule 291 have served the enclosed MOTION FOR LEAVE PROCEED IN
FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third -party
commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:
Solicitor General of The United States, Rm 5614
Department of Justice 950 Pennsylvania Ave.
N.W.. Washington D.C 20530-0001

I declare under penalty of perjury that the foregoing is true and correct.
Executed on January IS. 2021

(Signature)

15:

